    THE IMMIGRATION AND NATURALIZATION
       SERVICE’S PRIMARY INSPECTIONS
           AT AIR PORTS OF ENTRY

                      EXECUTIVE SUMMARY

      All persons who legally enter the United States must do so
through a designated port of entry (POE). The Immigration and
Naturalization Service’s (INS) Inspections Program is charged with
inspecting all travelers at POEs to ensure that they may enter the
United States. Typically, inspections at air POEs consist of a primary
inspection, the focus of this audit, and, when required, a secondary
inspection. These inspections are critically important in protecting the
nation’s borders from terrorists, illegal entries, alien smugglers, and
other illegal activities.

       The objective of this audit was to evaluate the INS’s procedures
for referring persons to secondary inspection, including critical
associated functions relating to analyses of advance passenger
information, availability of needed law enforcement information, and
inspector training.

       In summary,1 we found that:

       •      The capability of INS staff at air POEs to analyze advance
              passenger information to identify high-risk and
              inadmissible travelers and monitor the results of such
              targeting was limited due to the lack of adequate
              resources. Such information is critical in identifying
              travelers who should be referred for more detailed
              inspections.

       •      The INS’s lookout system does not always provide primary
              inspectors critical information known to the INS that could
              enable them to identify high-risk and inadmissible
              travelers, such as lookouts for aggravated felons who have


       1
         The complete findings of our audit are contained in the 174-page report that
follows this Executive Summary. Because the full report contains sensitive law
enforcement information that could compromise the INS’s inspection operations, only
the Executive Summary of this report is being released.
              been previously refused entry into the United States or for
              stolen passports.2 Additionally, the INS needs to
              significantly improve its capability to timely disseminate
              classified information to air POEs. Without mechanisms to
              ensure the timely availability of such law enforcement
              information, the INS increases the risk that persons known
              to be inadmissible will be allowed to enter the
              United States.

       •      Primary inspectors were not always querying lookout
              databases as required, and controls were not sufficient to
              ensure that all primary inspectors and supervisors could
              access backup information systems in the event of system
              outages. Additionally, the POEs’ policies and inspector
              practices for referring travelers to secondary inspection
              were generally consistent with or more stringent than INS
              national policy, but we found that inspector referral
              practices were inconsistent, even within the same POE.
              We concluded that these policies need to be reinforced,
              additional training should be provided, and increased
              controls instituted to ensure that travelers are not allowed
              to enter the United States who warrant more detailed
              inspections.

       •      The INS invested over $19 million in Fiscal Year (FY) 2002
              to provide basic training to approximately 1,000 new
              immigration inspectors at the INS’s Immigration Officer
              Academy. The basic training course provides a good
              foundation for newly hired inspectors, but we found that
              the training is not sufficient in two important areas − on
              the use of the computer systems that provide lookouts and
              other critical information and on terrorism awareness. This
              lack of adequate training increases the risk that inspectors
              could admit inadmissible travelers.


Background

     In FY 2002, the INS inspected almost 70 million air travelers at
more than 220 airports designated as POEs around the United States

       2
         Lookouts are the principal means by which primary inspectors are informed
of biographical or case data on individuals who should not be permitted to enter the
United States.

                                          ii
and in foreign countries where travelers are inspected prior to arrival
in the United States. Those inspections resulted in intercepting
approximately 6,900 criminal aliens, 2,700 persons being smuggled
into the United States, and more than 18,000 fraudulent travel and
identification documents. In total, INS inspectors denied admission to
over 208,000 travelers during inspections at air POEs in FY 2002.

      In order to properly perform their duties, primary inspectors
must learn and understand a vast amount of information and policies,
including admission classifications, documentary requirements, and
document security features. Additionally, they must effectively
retrieve and analyze traveler lookouts and other information
contributed by federal agencies through the Interagency Border
Inspection System (IBIS).3

      The goal of the primary inspection is to quickly admit legitimate
travelers into the United States and also quickly identify and refer
high-risk travelers and inadmissible aliens for a more detailed
secondary inspection. If primary inspectors have concerns about a
traveler, whether based on definite information or just an uneasiness
about the traveler's demeanor, they are to refer the traveler for a
secondary inspection. Primary inspections are not expected to be
detailed and are expected to be accomplished within an extremely
short period of time, generally well less than two minutes. During a
secondary inspection, a more experienced INS inspector can perform
as detailed an examination as necessary, without concerns about
inconveniencing United States citizens and legitimate non-U.S. citizen
travelers seeking to enter the country.

      The INS Inspections Program faces many challenges, such as
highly sophisticated fraud schemes, a high turnover rate for
inspectors, and difficulties with automated data systems. Turnover
alone meant that 26 percent of the INS inspections workforce (air,
land, and sea) was hired in FY 2002. This resulted in a significant
number of primary inspections being performed by relatively new and
inexperienced inspectors.



       3
         IBIS is an interagency lookout and inspections support system that was
designed to facilitate and more effectively control the entry of persons into the
United States. Nine cabinet level departments, in addition to independent agencies
and foreign governments, participate in IBIS. IBIS handles INS primary inspection
processing and collects the results of INS secondary inspections.


                                         iii
Audit Scope

      We conducted on-site work at INS Headquarters, the
Immigration Officer Training Academy at Glynco, Georgia, and three
air POEs. We also surveyed seven additional air POEs.4


Analysis of Passenger Information Prior to Flight
Arrival

       As part of a collaborative effort initiated in 1988, the INS, the
U.S. Customs Service, and the airline industry developed the Advance
Passenger Information System (APIS) as a border enforcement tool.
In essence, airlines collect passenger and crew biographical and travel
document information, such as name, date of birth, country of
citizenship, and document number (e.g., passport or visa number),
which is transmitted to the Customs Service via APIS. APIS then
matches the information against other law enforcement databases to
identify passengers or crew who should be detained or examined for
possible violations of U.S. laws. The resulting information, including
any possible “hits” (database matches), is transmitted to the INS and
Customs Service prior to the arrival of the aircraft, allowing them to
perform additional checks and research to further identify persons of
interest to federal and law enforcement agencies.

       INS Passenger Analysis Unit (PAU) inspectors analyze the
passenger information prior to flight arrival to identify travelers who
warrant closer examination upon arrival. For example, PAU inspectors
frequently query INS and other data systems. If a PAU inspector finds
evidence that a passenger warrants further inquiry, the inspector posts
a lookout that will be available to primary inspectors. When the
incoming passenger arrives at an air POE, the primary inspector will be
alerted to refer the traveler for a more detailed secondary inspection
or, although not as common, question the traveler more thoroughly
about a particular issue to determine if a problem exists.



       4
         As part of our audit process, we asked INS Headquarters to furnish us with
a signed management representation letter containing assurances that we were
provided with all necessary documents and that there were no relevant irregularities
of which we had not been made aware. As of the issuance date of this report, the
INS declined to provide the letter. Therefore, our findings are qualified to the extent
that we may not have been provided with all relevant information by INS
management.

                                          iv
       We found that the ten air POEs are consistently receiving
passenger data prior to flight arrival. The POEs received advance
passenger data via APIS for an average of 84 percent of all commercial
flights for FYs 2001 and 2002. This improved to over 88 percent at
the end of FY 2002. In October 2002, officials from these ten POEs
reported to us that they were receiving APIS data on all incoming
flights.

       However, we found that, while the ten air POEs are receiving
APIS data, their capability to analyze such information to identify high-
risk travelers and to monitor the results of such targeting is limited by
the lack of resources. Thus, primary inspectors were making
admissibility determinations for some travelers without using vital
information that could be critical in identifying persons who should be
referred for more detailed inspections.


Availability of Needed Law Enforcement Information

      To determine whether adequate mechanisms existed within the
INS to ensure that primary inspectors are timely receiving information
needed to identify high-risk and inadmissible travelers, we focused on
the timely availability of INS-created lookouts and the operational
capability to timely disseminate sensitive intelligence information to air
POEs.

       The National Immigration Lookout System (NAILS) serves as the
central repository for all INS lookout information. NAILS contains
approximately 2.5 million records and receives lookout records from
other INS systems, on-line input from INS personnel, and information
from other federal agencies. NAILS lookouts are uploaded to the IBIS
lookout database so that they are available along with lookout records
from other agencies for investigative purposes and for inspections of
arriving travelers by the INS and other federal inspection services,
such as the Customs Service.

      INS primary inspectors rely on lookouts to provide them with
information on individuals who should not be permitted to enter the
United States or who may be of interest to other law enforcement
agencies. Thus, if INS personnel do not timely enter lookouts in
NAILS, primary inspectors will not have all of the information they
need to make proper admissibility determinations.



                                    v
      We found that the INS Inspections Program’s policy pertaining to
the creation of lookouts, which is contained in the INS Inspector’s Field
Manual, is inadequate. The policy does not mandate the
circumstances for which lookouts must be created; rather, the policy
provides conditions for which INS employees may create lookouts. In
addition, the policy does not specify a time frame within which
lookouts are to be created. This is in marked contrast to policy in the
INS Special Agent’s Manual, which clearly identifies circumstances for
which lookouts in IDENT (a fingerprint system) must be created.

      Our tests also showed that INS employees were not timely
entering lookouts in NAILS. Specifically,

      •     Despite the INS’s National Lookout Unit being cited in prior
            reviews for having a backlog of pending lookouts for lost
            and stolen passports, the unit still had a backlog in mid-
            October 2002 of more than 1,800 pending lookouts; this
            was down from an FY 2002 carryover backlog of more than
            2,800. The Director of the unit attributed the backlog to a
            shortage of staff. Without such lookouts, aliens can enter
            the United States using stolen blank passports.

      •     Inspectors at the three sampled air POEs were not creating
            all needed lookouts timely. According to the INS’s
            Assistant Commissioner for Inspections, inspectors are to
            create lookouts in NAILS within a maximum of 24 hours.
            Our initial test showed that all three POEs had cases for
            which lookouts had not been entered in NAILS timely;
            however, all three POEs improved in our follow-up test.

      We also concluded that the INS needs to significantly improve its
capability to timely disseminate sensitive intelligence information to air
POEs. We found that the INS’s capability to relay classified non-
person specific information is limited because of a lack of adequate
secure communications equipment and too few Inspections personnel
with security clearances.


Referrals of Travelers to Secondary Inspections

       Since September 11, 2001, the INS has reemphasized and
clarified in a series of memoranda its policies and procedures for
performing lookout queries during standard inspections and also
during contingency operations

                                    vi
in the event of computer system outages.5 For example, primary
inspectors at air POEs are to perform queries of arriving travelers
using IBIS, the primary system for querying travelers. If IBIS
becomes unavailable, inspectors must query arriving travelers using
backup systems. Although these INS memoranda had yet to be
incorporated into the Inspector’s Field Manual as of November 2002,
they clearly detailed procedures to be performed. However, our
interviews with inspectors showed that a considerable number were
not knowledgeable about query requirements and procedures. We
concluded that POE management or local training staff need to
reiterate the policies to ensure complete understanding of and
compliance with requirements.

       As part of its performance measurement system, the INS Office
of Inspections measures the extent to which primary inspectors at air
POEs are querying travelers in IBIS. Although the Office requires the
regions to submit monthly reports showing the status of achieving the
performance goal regarding these queries, they are not required to
identify causes for falling short of the goal, whether because of IBIS
unavailability or other reasons. The Assistant Commissioner for
Inspections told us that he strongly believed that inspectors were
performing required queries based on the feedback he was receiving
from the field. Our audit tests showed, however, that POEs were not
always performing required IBIS queries.

       We also tested the ability of inspectors and supervisors at air
POEs to access backup systems to perform primary queries in the
event of IBIS outages. A considerable number of inspectors and
supervisors could not demonstrate to us the ability to access backup
systems. Further, 15 percent of non-supervisory inspectors at air
POEs Servicewide would not have been able to query travelers in one
of the backup systems because they either had not been granted
system access or the system had deleted their access because they
failed to update their password as required. We concluded that the
INS needs to expeditiously establish a mechanism to ensure primary
inspectors and supervisors are able to access backup query systems in
the event of IBIS outages.



      5
          The data centers supporting the air POEs reported over 99 percent
availability (less than 1 percent downtime) for FY 2003 through December 2002.
However, even though access to IBIS through the data centers may be available, an
air POE can experience downtime and, thus, be unable to access IBIS due to other
reasons, such as problems with a local server.

                                       vii
       We also found that the INS’s Field Manual does not provide
sufficient guidance to primary inspectors regarding lookouts. The
Manual is clear with regard to admission classifications and the
documentary requirements for admission. Further, it is clear in the
Manual that travelers not meeting admission requirements are to be
referred to secondary inspection for a more detailed examination.
However, the Manual does not adequately address the various lookout
scenarios that warrant referral to secondary, instructions for
interpreting lookout data, or factors for the primary inspectors to
consider when determining if the traveler is a lookout match. We
concluded that the INS needs to revise the Manual to ensure that it
adequately addresses referrals of travelers with lookout matches. The
lack of clear procedures with regard to lookout referrals can result in
primary inspectors admitting inadmissible travelers.

      Our tests of the referral policies at the ten air POEs showed that
the POEs’ policies and inspector practices for referring travelers to
secondary inspection were generally consistent with or more stringent
than INS national policy. However, our tests also showed that
inspectors inconsistently refer travelers to secondary inspection, even
within the same POE.

      Our tests also found that the INS inspection disposition data in
IBIS for FY 2002 were inaccurate and incomplete. IBIS reflected more
than 41,000 unknown inspection dispositions for travelers referred to
secondary inspection in FY 2002. Of these 41,000 unknown
dispositions, primary inspectors identified more than 2,800 as lookout
matches. Our tests showed that the INS needs to ensure that
inspectors record the correct results of secondary inspections in IBIS.


Training for New Inspectors

       The INS invested over $19 million to train approximately 1,000
new immigration inspectors at its Academy in FY 2002. Yet we found
that the training was not sufficient in one of the most important areas
— the use of computer systems that provide lookout and other critical
information on travelers seeking entry into the United States. The
Academy needs to incorporate additional “hands-on” computer training
in the curricula; further, trainees need to be tested on the use of
computer systems as they are for other curricula areas. Additionally,
the terrorism awareness training provided to new inspectors was not
sufficient to make trainees aware of current terrorist tactics used to
enter the United States. We found that training provided by the air

                                   viii
POEs for new employees varied widely, ranging from extensive to
almost nonexistent among the ten POEs. We concluded that
inadequate training greatly increases the risk that inspectors could
admit inadmissible travelers.


Recommendations

       This report contains 27 recommendations for specific and
immediate steps the INS should take to improve its primary inspection
operations at air POEs. Our recommendations focus on the INS’s need
to expeditiously improve its capability to perform passenger analyses
prior to flight arrival. Such analyses are critical in identifying high-risk
individuals so that primary inspectors can prevent the entry of
inadmissible persons into the United States. The INS also needs to
strengthen its policy, controls, and mechanisms to ensure that vital
lookout and sensitive intelligence information is available to primary
inspectors. Additionally, the INS needs to strengthen controls over the
entire primary inspection process. Controls must be adequate to
ensure that primary inspectors are aware of procedural requirements,
analyze the results of lookout queries, and refer appropriate travelers
to secondary inspection. Controls also must be adequate to safeguard
the integrity of the primary inspection referral process and ensure that
INS system data will correctly reflect the inspection disposition for
travelers referred to secondary inspection.

      Further, the INS needs to ensure that the training provided to
new inspectors is sufficient to enable them to capably use the
computer systems that provide lookout and other critical information
on travelers seeking entry into the United States. The fact that in FY
2002 approximately 26 percent of all inspectors at air, land, and sea
POEs were newly hired only increases the need for the INS to
implement an aggressive and complete inspector training program.




                                     ix
